 

2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

Le g al Br ie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-97

MASSACHUSETTS LOBSTERMEN’S ASSOCIATION, ET AL.,
Petitioners,

v.
WILBUR ROSS, SECRETARY OF COMMERCE, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of August, 2020, send out
from Omaha, NE 5 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE AS AMICUS CURIAE IN

SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Ilya Shapiro
Counsel of Record
CATO INSTITUTE
1000 Mass. Ave., N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

Subscribed and sworn to before me this 3 Ist day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Are] Kevee. 0. Liao? Ondhao ht, hala

Affiant 40022

 

My Comm. Exp. September 5, 2023,

 

Notary Public
Counsel for Massachusetts Lobstermen's Association, et al.:
Jonathan Calvin Wood
Counsel of Record
Pacific Legal Foundation
3100 Clarendon Blvd., Suite 610
Arlington, VA 22201-5330
jwood@pacificlegal.org
(202) 888-6881

Counsel for Natural Resources Defense Council, Inc.:
Tan Michael Fein
Counsel of Record
Natural Resources Defense Council
111 Sutter Street, 21st Floor
San Francisco, CA 94104
ifein@nrdc.org
415-875-6147

Counsel for Ross, Wilbur, et al.:
Jeffrey B. Wall

Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217

Counsel for Defendant-Intervenor Conservation Law Foundation:
Peter Shelley

Conservation Law Foundation

62 Summer Street

Boston, MA 02110

(617) 850-1770

pshelley@clf.org

Counsel for Defendant-Intervenors Center for Biological Diversity and R. Zack Klyver:
Roger M. Fleming

Blue Planet Strategies, LLC

47 Middle Street

Hallowell, ME 0434 7

(978) 846-0612

rfleming@earthjustice.org
